                                                                       
                                       Department of the Interior 
                                       Office of Inspector General 
                                                                   
                                                                       
                                                                       
                                                                       
                     AUDIT REPORT 


                                            
                            U.S. Fish and Wildlife Service 
                         Federal Assistance Program Grants 
                         Awarded to the State of New Jersey,  
                     Department of Environmental Protection, 
                            Division of Fish and Wildlife, 
                      From July 1, 2004, Through June 30, 2006 
                  
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0010­2007                    December 2007 
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                December 5, 2007

                                    AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
              Awarded to the State of New Jersey, Department of Environmental Protection,
              Division of Fish and Wildlife, From July 1, 2004, Through June 30, 2006
              (No. R-GR-FWS-0010-2007)

        This report presents the results of our audit of costs incurred by the State of New Jersey
(State) Department of Environmental Protection (Department), Division of Fish and Wildlife
(Division), under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided
the grants to the State under the Federal Assistance Program for State Wildlife Restoration and
Sport Fish Restoration (Federal Assistance Program). The audit included claims totaling
approximately $16.9 million on 31 grants that were open during State fiscal years (SFYs) ended
June 30 of 2005 and 2006 (see Appendix 1). The audit also covered Division compliance with
applicable laws, regulations, and FWS guidelines, including those related to the collection and
use of hunting and fishing license revenues and the reporting of program income.

       We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. We also identified issues that require FWS attention, including $80,116
of unreported program income and inadequate management of land and equipment.

       We provided a draft report to the FWS and the Division for response. We summarized
the Division and the FWS Region 5 responses after each recommendation, as well as our
comments on the responses. FWS concurred with our recommendations and stated they would
consider the Division’s comments in their corrective action plan. We list the status of each
recommendation in Appendix 3.

      Please respond in writing to the findings and recommendations included in this report by
March 4, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact Mr. Tom Nadsady, the
team lead, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $16.9 million on the 31 grants that were open
during SFYs 2005 and 2006 (see Appendix 1). We report only on the conditions that existed
during this audit period. We performed our audit at Division headquarters in Trenton, NJ, and
visited 1 fish hatchery, 16 wildlife management areas (WMAs), 2 regional offices, 1 fishing lake,
and 1 game farm (see Appendix 2). We performed this audit to supplement, not replace, the
audits required by the Single Audit Act Amendment of 1996 and by Office of Management and
Budget Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and


1
    16 U.S.C. §§ 669 and 777, as amended, respectively.



                                                          2
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, indirect costs, drawdowns of
       reimbursements, in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Division used hunting and fishing license revenues solely for
       sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the relevant work of the State of New Jersey Office of the
State Auditor, which helped us to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in them for testing. We did not project the results of the tests to the total
population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
Department operations.

Prior Audit Coverage
On March 15, 2005, we issued “U.S. Fish and Wildlife Service Federal Assistance Grants
Administered by the State of New Jersey Department of Environmental Protection, Division of
Fish and Wildlife from July 1, 2001 to June 30, 2003” (Report No. R-GR-FWS-0010-2004). We
followed up on the status of the 21 recommendations in the report and found 12 of the
recommendations are considered resolved but unimplemented. As identified below, the open
recommendations relate to the following areas:

   • improving controls to ensure grants are not improperly charged for labor and non-labor
       costs and that in-kind contributions are adequately supported;


                                                  3
   • ensuring the Division properly reports program income;

   • recovering proceeds from the sale of vehicles that were originally purchased with Federal
       Assistance Program funds;

   • improving equipment management; and

   • improving the payroll system to ensure the Division correctly charges payroll costs to the
       grants.

Our current audit scope included the areas covered in the prior audit. Where conditions exist that
need improvement, we reported them in the Findings and Recommendations section of this
report. We repeat one prior audit recommendation to improve controls over equipment. The
remaining findings in this report differ significantly enough from those reported in the prior audit
to warrant new recommendations. The new recommendations do not eliminate the need for the
State and FWS to document and report the status of the prior audit recommendations to the
Department of Interior, Office of the Assistant Secretary for Policy, Management and Budget.

We reviewed the State’s most recent SFY2005 Comprehensive Annual Financial Report and
Single Audit Report. Our review of the Single Audit Report found that the Division’s Sport Fish
and Wildlife Program grants were not considered major programs and were assessed a low risk.
In addition, we reviewed the results of the Department’s property audit for SFY2006. The audit
reported that $112,686 worth of Division equipment that was listed on the Department inventory
could not be found.




                                                 4
                                     Results of Audit

Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below. We discuss the findings in more detail in
the Findings and Recommendations section.

       Unreported Program Income. The Division did not report all the program income it
       earned from activities on lands managed with Federal Assistance Program funds.

       Inadequate Land Management. The Division needs to improve its land records and
       determine whether several non-wildlife uses of land purchased with federal funding are
       appropriate.

       Inadequate Equipment Management. We found several untagged equipment items
       that were not located on the Division’s inventory and one mistagged item.

Findings and Recommendations

A.     Unreported Program Income

       Grantees are permitted to earn income as a result of grant activities, but must account for
       the income in a manner approved by the FWS. The Division earned income from
       commercial activities and agricultural leases on WMAs operated and maintained with
       Federal Assistance Program funds. The funds were provided under Statewide
       Development Grants FW-63-D-20 and FW-63-D-21, which supported the operation and
       maintenance of the Division’s WMAs and work at its two hatcheries. The Division
       earned revenues of $136,116 from the commercial activities and an unknown amount
       from agricultural leases. The Division did not report all of this income to FWS.

       The Code of Federal Regulations (43 C.F.R. § 12.65) defines program income as gross
       income a grantee receives that is “directly generated by a grant-supported activity.”
       Grantees may earn such “program” income from grant-related activities, but federal
       regulations (50 C.F.R. § 80.14(c)) require grantees to report such income to FWS. The
       FWS Manual, Section 522.19, Exhibit 1 provides further clarification on the types of
       activities the FWS considers program income. It includes in its list income from fees
       charged for using facilities purchased or managed with Federal Assistance Program
       funds, income they receive from contractor provided services, and other income that is
       directly generated by a grant-supported activity.

       Commercial activities

       On the areas maintained with grant funding, the Division earned in SFYs 2005 and 2006:


                                                5
    • $77,937 from leases for communication towers, house rentals, a hydroelectric
      plant and marinas;

    • $40,462 from the sale of horseback riding permits;

    • $15,138 from dog trials; and

    • $1,203 from special rent and $1,376 from clubhouse rent.

The Division earned $80,116 of this revenue during the grant period for FW-63-D-20, but
did not report any of this income to FWS on the grant’s financial status report (SF-269),
which summarizes expenditure activity for the grant. Additionally, the Division
identified $28,575 in anticipated program income in the FW-63-D-21 grant agreement.
However, the State accounting system identified $56,000 in income earned from leases,
horseback riding permits, field trials, and special and clubhouse rent while grant FW-63-
D-21 was active.

Agricultural leases

The Division also failed to report all barter transactions that occurred on lands within the
WMAs managed and maintained with Federal Assistance Program funds under grants
FW-63-D-20 and FW-63-D-21. The barter transactions allow farmers to grow crops on
WMAs in exchange for leaving a portion of the crops for wildlife. The gross value of the
crops is barter income and should be reported as program income.

We also identified problems with the reporting of program income in our 2004 audit. A
Division official told us they did not estimate program income for FW-63-D-20 because
they were still writing the corrective action plan to address the prior audit. They did not
have enough time to make the changes to the 2005 grant documents. They have not yet
submitted the SF-269 to FWS for grant FW-63-D-21. A Division official told us that she
did not report the value of the crops as program income because she was not aware that
the barter arrangements were to be treated as such.

Division management agreed with the finding, and they are currently working with FWS
to identify what types of income should be reported. Proper identification and reporting
of program income will help the Division and FWS to ensure the program income is used
for the purposes of the grant agreement, as required.

Recommendations

The FWS should work with the Division to:

1. determine whether the $80,116 earned on areas managed under FW-D-20 is program
   income, and, if so, a) revise the SF-269, b) ensure the income was used as required,
   and c) resolve any portion of the program income that was not used appropriately;



                                         6
2. determine what portion of the $56,000 identified in the accounting system as income
   from various activities on the WMAs should be reported as program income on the
   SF-269 for FW-D-21, and ensure the Division accounts for and uses it appropriately;
   and

3. establish procedures that ensure the Division reports on the financial status reports
   those barter arrangements that support grant objectives.

Division Response

Commercial activities

Division officials agree with the finding that they did not report all program income.
They note that we identified unreported program income in a finding in the prior audit
(No. R-GR-FWS-0010-2004). They indicated that they did not have sufficient time to
implement actions in the corrective action plan from the first audit before this audit
began. Officials have been working with the FWS Regional Office to resolve the
problem and have developed a proposal for resolution that is awaiting FWS approval.

Agricultural leases

Division officials believe the recommendation related to barter should be considered
closed, noting that FWS officials indicated in October 2007 that FWS would develop a
new policy that requires States to disclose barter transactions on financial status reports,
but not to report them as program income.

FWS Response

The FWS Region 5 concurred with the recommendations and stated that the Division’s
response will be considered in the preparation of the corrective action plan.

OIG Comments

FWS regional officials concurred with recommendations A.1, A.2, and A.3, and Division
officials developed a proposal for the reporting of program income from commercial
activities. However, Division officials did not adequately address the recommendation to
establish procedures to ensure barter agreements would be reported on financial status
reports.

For these three recommendations, the corrective action plan should also include:

   •   action(s) taken or planned by the State,

   •   targeted completion dates,




                                          7
        •     titles of the officials responsible for the implementation, and

        •     verification the FWS headquarters officials reviewed and approved of actions
              taken.

B.   Inadequate Land Management

     Federal Regulations (50 C.F.R. § 80.19) require each State to maintain complete property
     records and to follow the records requirements in the Federal Aid Manual and OMB
     Circular A–102. Under 50 C.F.R. § 80.18(c), the Division is responsible for controlling
     all assets and assuring they serve the purpose for which acquired. To test the Division’s
     compliance with these requirements as they pertain to land, we reviewed four sets of land
     records: those contained in the State Department of Treasury Land and Building Asset
     Management System (LBAMS), those contained in a database maintained by the
     Division, those maintained by FWS, and supporting documentation maintained by the
     Division. The supporting records include documents such as land acquisition maps,
     appraisals, deeds, correspondence, and accounting transactions. We also visited several
     WMAs and other sites.

     We identified the following problems with the land records:

         • There is a difference between the total acres recorded in LBAMS as Division land
           and the acres recorded in the Division database. The LBAMS includes 58,947, or
           23 percent, fewer acres than those in the Division database.

         • There are differences between FWS records, the Division database, and
           supporting records. We reviewed information for six FWS grants that the State
           used to purchase land and found:

                     The Division database identifies land purchased at Oyster Creek, Ocean
                      County, under FWS grant F-55 as a State-funded purchase.

                     The Division database failed to identify 9 of the 193 tracts of land
                      purchased with funding from the FWS grants as purchased with Federal
                      Assistance Program funds.

      During our site visits, we also identified the following uses of land purchased with grant
      funds.

            • At the Assunpink WMA, the Division issued a permit for the use of 10 acres of
              land for a model airplane facility.

            • Greenwood WMA contains a Federal Aviation Administration (FAA) facility for
              which there is no lease.




                                                8
     • There are 16 billboards on WMAs, which is a commercial non-wildlife use of the
       WMAs. The Department of Environmental Protection (DEP) Commissioner
       developed a draft policy for managing billboards on DEP property. It
       recommends removing billboards on all WMAs except Greenwood and Absecon.

The FWS manual (522 FW 22.6(B)) authorizes States to allow commercial activities on
land acquired with Federal Assistance Program funds. The manual (522 FW 22.7) also
specifies that the State fish and wildlife agency has the primary responsibility for
ensuring commercial activities do not interfere with the purposes for which they were
acquired and that the FWS may review or inspect the activities to ensure compliance.

A Division official told us the differences among land records maintained by the State,
Division, and FWS generally result from lack of personnel to perform adequate
monitoring of land management activities, in particular due to additional lands they must
monitor that were purchased under the State’s Green Acres program. He also told us the
lack of a lease for the FAA facility was an inadvertent oversight. He added that 12 of the
16 billboards were on the land when it was acquired and were never removed and 4 were
added after the land was acquired. Finally, it was suspected that the deed to the property
upon which the model airplanes are flown allowed this activity.

If the State does not have the most accurate and recent information on all of the
Division’s land, it may understate the value of State assets in its Comprehensive Annual
Financial Report. Additionally, without accurate records the Division cannot ensure
accountability and control of land purchased with Federal Assistance Program funds.
Finally, the Division must ensure that non-wildlife activities on the land do not interfere
with the original purpose for which land was acquired.

Recommendations

The FWS should work with the Division to ensure it:

1. reconciles its land records with the State LBAMS and with FWS records;

2. determines whether the use of lands for model airplanes and the FAA station interfere
   with the purposes for which the land was acquired and should be allowed to continue;
   and

3. determines whether the billboards should be removed to comply with State policy,
   when the policy is finalized.

Division Response

Division officials agree with the finding and noted that the differences between the State
LBAMS and the Division records will be an ongoing problem since there is no staff
available to update LBAMS regularly. It stated that the Division has made progress
reconciling its records to those of the FWS Region 5.


                                         9
     The Division stated it would research historical records regarding model airplane use at
     Assunpink WMA. It has initiated contact with the FAA regarding the lease for the
     station and stated it would probably take several months to complete and that Department
     lawyers are working on a resolution to the billboards on WMAs.

     FWS Response

     The FWS Region 5 concurred with our recommendations and stated that the Division’s
     response will be considered in the preparation of the corrective action plan.

     OIG Comments

     FWS Region 5 concurred with the recommendations, and Division officials indicated
     they are taking actions to address the recommendations. We note that while we
     understand the State has staffing shortages, accurate land records are an important
     internal control to ensure the State maintains control over its lands.

     The corrective action plan should include:

        •   the action(s) taken or planned,

        •   targeted completion dates,

        •   titles of the officials responsible for the implementation, and

        •   verification the FWS headquarters officials reviewed and approved of actions
            taken.

C.   Inadequate Equipment Management

     As discussed in the land management finding above, federal regulations (50 C.F.R. §§
     80.18(c) and 80.19) require the State to maintain control of its assets and keep accurate
     records on them. In addition, Department Policy and Procedure No. 1.17 requires
     physical assets (defined as anything costing over $1,000) to be tagged with a sticker. It
     also directs the Division to assign an employee to perform duties of the Division
     Inventory Control Coordinator. To test compliance with these policies, we reviewed the
     Department’s equipment inventory and physically inspected a sample of equipment
     during site visits. We found several conditions the Division should address to improve
     controls over its equipment.

     We found in our last audit (Report No. R-GR-FWS-0010-2004) that the Department did
     not identify the source of funding for equipment listed on the inventory. We determined
     the same condition existed during our current audit. While the inventory contains
     sufficient information to trace the source of funding for each piece of equipment to a
     separate database, it does not allow for easy identification of the funding source. The



                                              10
           Department therefore cannot readily ensure its equipment is being used for the originally
           intended purposes, as required under 50 C.F.R. § 80.18(c).

           Additionally, we judgmentally tested 32 items with a value of $462,7682 from the
           Department’s inventory. We determined by tracing an identification number associated
           with the equipment to the funding source (contained in a separate database) that the 32
           items were purchased either with license revenue or an unknown source of funds. We
           verified all the items were located at their recorded location and were being used for their
           intended purposes, but we noted a problem with one item’s identification in the
           inventory. At the Hackettstown Hatchery, the identification tag on a fertilizer sprayer
           was marked “129627.” The hatchery maintained an inventory that assigned that number
           to a seeder. The Department’s inventory assigned that number to a Storr tractor.

           We also found four additional items in the field that the Department did not list on its
           inventory. Specifically,

           •    At Collier’s Mill WMA:

                   • Two fuel tanks and two pumps (plumbed together as a unit) did not have
                     identification tags, and we could not find them on the Department’s inventory
                     list.

                   • A Ford 5000 tractor and a Ford 4000 tractor did not have identification tags,
                     and we could not find them on the Department’s inventory list.

           •    At the Whitingham WMA, a safe marked “FN Security USA” did not have a State
                inventory identification tag and was not listed on the Department inventory.

           A Division official stated the deficiencies listed above result from the lack of a
           designated Inventory Control Coordinator and inventory control procedures.

           Finally, we note that in 2006, the State’s General Services office conducted a physical
           inventory of the Division’s equipment, and the office identified $112,686 worth of
           equipment that was listed on the Department inventory but was missing. The Division
           had not located these assets at the time of our audit. While only one missing item was
           purchased with Federal Assistance Program funding, the missing equipment indicates
           that the Department has inadequate controls over its assets.

           Without adequate controls, the Division cannot ensure that assets purchased with Federal
           Assistance Program funds are utilized solely for fish and wildlife purposes. We repeat
           one open recommendation below from our prior audit, pertaining to identifying the
           funding source for equipment, and make two new recommendations. Implementation of
           the repeat recommendation will be tracked under the audit follow-up process for the prior
           report.

2
    The total Division inventory totaled $10.4 million and included 1,438 items.


                                                           11
Repeat Recommendation

We recommend that FWS require the Division to modify the official equipment inventory
listing to include the amount or percentage of Federal Assistance [Program] participation
in each equipment item (Recommendation E.3. from Report No. R-GR-FWS-0010-
2004).

New Recommendations

The FWS should work with the Division to ensure the Division:

1. designates an Inventory Control Coordinator and

2. establishes inventory control procedures.

Division Response

The Division agrees with the finding and noted that an employee has been designated as
the inventory control coordinator and will establish and update inventory control
procedures.

FWS Response

The FWS Region 5 concurred with the recommendations and stated that the Division’s
response will be considered in the preparation of the corrective action plan.

OIG Comments

FWS Region 5 concurred with the recommendations, and the Division’s designation of
an Inventory Control Coordinator and establishment of inventory control procedures
should adequately address the audit recommendations. However, additional information
is needed in the corrective action plan including:

   •   the action(s) taken or planned,

   •   targeted completion dates,

   •   titles of the officials responsible for the implementation, and

   •   verification the FWS headquarters officials reviewed and approved of actions
       taken (including documentation on procedures developed).




                                         12
                                                    Appendix 1

NEW JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION
            DIVISION OF FISH AND WILDLIFE
      FINANCIAL SUMMARY OF REVIEW COVERAGE
         JULY 1, 2004 THROUGH JUNE 30, 2006

         Grant         Grant       Claimed
        Number        Amount        Costs

       F-15-R-46     $1,068,768    $1,512,436
       F-15-R-47      1,268,800     1,274,944
       F-15-R-48      1,068,800       843,112
       F-48-R-18        216,500       226,911
       F-48-R-19        200,000       151,511
       F-48-R-20        200,000       166,975
       F-50-D-19        800,000       800,037
       F-50-D-20        800,000       800,019
       F-50-D-21        800,000       800,648
       F-52-E-17        170,000       189,605
       F-52-E-18        175,000       192,195
       F-52-E-19        180,000       202,781
       F-52-E-20        180,000       173,787
       F-69-D-12        304,564       447,259
       F-69-D-13        304,564       732,765
       F-69-D-14        327,200       643,628
       F-69-D-15        358,939        72,759
       F-72-D-1         604,000       143,777
       FW-49-C-33       129,000       234,162
       FW-49-C-34       130,000       253,956
       FW-49-C-35       130,000       209,688
       FW-56-T-30       325,000       311,847
       FW-56-T-31       325,000       257,342
       FW-63-D-20     1,480,267     2,340,790
       FW-63-D-21     1,690,842     1,645,481
       FW-69-R-8         65,929       137,136
       FW-69-R-9         65,929        85,971
       W-50-S-33        773,333       649,286
       W-50-S-34        773,333       715,653
       W-68-R-9       1,013,333       939,279
       W-68-R-10      1,013,333       940,685
                    $16,942,434   $18,096,425




                        13
                                                       Appendix 2

NEW JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION
            DIVISION OF FISH AND WILDLIFE
                    SITES VISITED

                     Headquarters

                        Trenton

                    Regional Offices

     Northern Regional Office for Land Management at
                   Whitingham WMA
       Southern Regional Office at Winslow WMA

              Wildlife Management Areas

                    Assunpink East
                    Assunpink West
                    Berkshire Valley
                      Buckshutem
                      Clark Pond
                     Collier’s Mill
                       Columbia
                      Greenwood
                      Manchester
                     Port Republic
                     Sedge Island
                    Sparta Mountain
                    Turkey Swamp
                       Van Nest
                      White Lake
                       Winslow

                         Other

                 Hackettstown Hatchery
     Oyster Creek (a future boat ramp), Ocean County
                    Prospertown Lake
           Rockport Game Farm, Hackettstown




                           14
                                                                                      Appendix 3

                                       NEW JERSEY
                        DEPARTMENT OF ENVIRONMENTAL PROTECTION
                              DIVISION OF FISH AND WILDLIFE

                      STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                 Status                             Action Required
A.1, A.2, A.3, B.1,    FWS management              Additional information is needed in the
B.2, B.3, C.1 and      concurs with the            corrective action plan, including the actions
C.2                    recommendations, but        taken or planned to implement the
                       additional information is   recommendations, targeted completion
                       needed as outlined in       date(s), the titles of official(s) responsible for
                       the “Actions required”      implementation of each recommendation, and
                       column.                     verification that FWS reviewed and approved
                                                   of actions taken or planned by the State. We
                                                   will refer recommendations not resolved
                                                   and/or implemented at the end of 90 days
                                                   (after March 4, 2008) to the Assistant
                                                   Secretary for Policy, Management and Budget
                                                   for resolution and/or tracking of
                                                   implementation.




                                            15
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
